<html>
<title> - SUPPORTING THE PEOPLE OF VENEZUELA AS THEY PROTEST PEACEFULLY FOR DEMOCRATIC CHANGE AND CALLING TO END THE VIOLENCE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                 SUPPORTING THE PEOPLE OF VENEZUELA AS
                 THEY PROTEST PEACEFULLY FOR DEMOCRATIC
                 CHANGE AND CALLING TO END THE VIOLENCE

=======================================================================

                                 MARKUP

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                              H. Res. 488

                               __________

                           FEBRUARY 28, 2014

                               __________

                           Serial No. 113-124

                               __________

        Printed for the use of the Committee on Foreign Affairs



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______



                    U.S. GOVERNMENT PRINTING OFFICE
86-872PDF                     WASHINGTON : 2014
____________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b1d6c1def1d2c4c2c5d9d4ddc19fd2dedc9f">[email&#160;protected]</a>  




                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida<greek-l>       ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14 deg.                          LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere

                     MATT SALMON, Arizona, Chairman
CHRISTOPHER H. SMITH, New Jersey     ALBIO SIRES, New Jersey
ILEANA ROS-LEHTINEN, Florida         GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ENI F.H. FALEOMAVAEGA, American 
JEFF DUNCAN, South Carolina              Samoa
RON DeSANTIS, Florida<greek-l>       THEODORE E. DEUTCH, Florida
TREY RADEL, Florida--resigned 1/27/  ALAN GRAYSON, Florida
    14 deg.
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H. Res. 488, Supporting the people of Venezuela as they protest 
  peacefully for democratic change and calling to end the 
  violence.......................................................     2
  Amendment in the nature of a substitute to H. Res. 488 offered 
    by the Honorable Ileana Ros-Lehtinen.........................     7
  Amendment to the amendment in the nature of a substitute to H. 
    Res. 488 offered by the Honorable Matt Salmon, a 
    Representative in Congress from the State of Arizona, and 
    chairman, Subcommittee on the Western Hemisphere.............    12

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE RECORD
                                APPENDIX

Markup notice....................................................    20
Markup minutes...................................................    21
Markup summary...................................................    22
The Honorable Alan Grayson, a Representative in Congress from the 
  State of Florida: Prepared statement...........................    23


                 SUPPORTING THE PEOPLE OF VENEZUELA AS



                      THEY PROTEST PEACEFULLY FOR



                     DEMOCRATIC CHANGE AND CALLING



                          TO END THE VIOLENCE

                              ----------                              


                       FRIDAY, FEBRUARY 28, 2014

                       House of Representatives,

                Subcommittee on the Western Hemisphere,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 10:06 a.m., in 
room 2172, Rayburn House Office Building, Hon. Matt Salmon 
(chairman of the subcommittee) presiding.
    Mr. Salmon. The subcommittee will come to order. Pursuant 
to notice for purposes of markup, I call up H. Res. 488, a 
resolution supporting the people of Venezuela as they protest 
peacefully for democratic change and calling to end the 
violence. Without objection, the measure is consider read and 
open for amendment at any point.
    Before recognizing myself and other members for statements, 
I am going to call up Ros-Lehtinen 39, the bipartisan amendment 
in the nature of a substitute, and ask unanimous consent that 
it be considered en bloc with the brief Salmon amendment that 
the members have before them.
    Without objection, the amendment en bloc is considered read 
and open for amendment at any point.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Salmon. All members may have 5 days to insert remarks 
on this measure into the record should they choose to do so. I 
now recognize myself to speak briefly on this bill and 
amendment.
    Our neighbor to the south, Venezuela, suffers from one of 
the worst murder rates in the world, crushing inflation rates 
of over 56 percent, regular electrical blackouts and shortages 
in everyday items such as milk, flour, and even toilet paper. 
All of this is in the face of a country who enjoys one of the 
world's largest deposits of oil reserves. Clearly the Venezuela 
people deserve far better.
    For several weeks now many of us have watched in horror as 
protesters in Venezuela have taken to the streets to peacefully 
express their frustrations and a desire for change. They have 
been brutally attacked by elements of their government and 
government-aligned thugs on motorcycles. This has led to the 
tragic death of at least 14 individuals, over 100 people 
injured, and many more who have been unjustly detained for 
exercising their universal right to voice their aspirations for 
democracy, freedom, basic human rights, and adherence to the 
rule of law.
    We bring up this bipartisan resolution today in that 
spirit, and we call upon the State Department, the Organization 
of American States and other parties in the hemisphere to join 
us in pushing for an end to this useless violence, to fully 
support the rule of law, and to promote a more transparent 
democratic process in Venezuela.
    Although the world's attention has been focused more 
vividly on the crisis in Ukraine, the stakes in Venezuela are 
no less important. This is about freedom. It is a nation 
squarely in our very neighborhood, and, until its most recent 
history, had a long and proud tradition of adhering to 
democratic norms, and was even an ally of the United States. 
Continued instability there adversely affects Venezuela and the 
entire region and could well lead to violence and instability 
well beyond their boundaries.
    I want to thank the committee's chairman emeritus, Ileana 
Ros-Lehtinen, for her undying support for freedom and democracy 
anywhere on the planet, especially in our hemisphere, and for 
pushing for the passage of this timely and important 
resolution.
    I also want to thank the full committee Ranking Member 
Engel and subcommittee Ranking Member Albio Sires for working 
with us to craft a solid, bipartisan attempt to put our words 
and our voices behind those Venezuelans who aspire to make 
Venezuela a better country for their fellow citizens.
    And I now recognize the ranking member.
    Mr. Sires. Mr. Chairman, I thank you for holding this 
markup to consider this important resolution calling for an end 
to violence and supporting the people of Venezuela's right to 
express their frustration toward the deteriorating economic, 
public safety, and political conditions in the country. Rather 
than allow the space and freedom for peaceful demonstration, 
President Maduro has instead utilized oppressive Cuban tactics 
in silencing the media, detaining antigovernment demonstrators, 
and arresting opposition leader Leopoldo Lopez.
    Like his predecessor, Mr. Maduro has also attempted to 
deflect unwarranted blame against the United States by 
expelling U.S. Embassy personnel. And now, instead of 
peacefully mediating the differences with the thousands of 
antigovernment demonstrators that have grown tired of rising 
crime, inflation, shortages of basic goods, and limit the 
freedoms of expression, Mr. Maduro has proposed an oddly timed 
diplomatic exchange with our country.
    Mr. Maduro and the Government of Venezuela need to address 
the grievances of its people through meaningful dialogue that 
respects the space and expression of contrasting points of 
view.
    I am particularly disturbed and saddened by the unfortunate 
loss of life that has resulted from the demonstrations, and 
echo the international community's condemnation of the 
Venezuelan Government's unnecessary and inappropriate use of 
force against the demonstrators. However, it is unfortunate 
that some nations exalting democratic virtues within the 
hemisphere can turn a blind eye to these physical and human 
rights abuses.
    I am a proud cosponsor of House Resolution 488, supporting 
the people of Venezuela in these difficult and uncertain times. 
I join my colleagues in the international community in 
imploring the Government of Venezuela to respect the freedom of 
expression and assembly, and peaceful engagement of opposition.
    I thank my good friend Chairman Salmon and Chairman 
Emeritus Ros-Lehtinen for their leadership and steadfast 
efforts in advancing this resolution, which I urge my 
colleagues to support. Thank you.
    Mr. Salmon. Thank you.
    The Chair now entertains any others seeking recognition.
    The former chairman of the full committee, Ileana Ros-
Lehtinen.
    Ms. Ros-Lehtinen. Well, thank you so much, Mr. Chairman, 
thank you, Ranking Member, for marking up this timely and 
important bipartisan resolution in support of the people of 
Venezuela in their pursuit of freedom and democracy. The 
situation in Venezuela as we have seen has rapidly 
deteriorated, so I thank you both as well as the colleagues on 
the committee who recognize the importance of supporting 
democracy in Venezuela. I also would like to thank the full 
committee chairman, Mr. Royce, and the ranking member, Mr. 
Engel, for their efforts, which have been instrumental in 
ensuring that this bipartisan measure enjoys the amount of 
support that it currently does.
    I would like to extend my gratitude to the hard-working and 
dedicated staff members that have helped pave the way for this 
resolution: Tom Sheehy, Edward Burrier, Jason Steinbaum, Mark 
Walker, Leah Campos, Ramon Zertuche, Eric Jacobstein, and so 
many others. Thank you, thank you.
    H. Res. 488 is not about Venezuela; it is also about who we 
are as a Nation. We often take for granted the freedoms that we 
enjoy as Americans, but when we witness events like those 
happening in Venezuela, where Maduro silences dissent by 
unleashing his state thugs on innocent civilians who march for 
freedom and democracy, killing and injuring those who have had 
the temerity to call for reforms, we are reminded of just how 
great America is.
    And so when we see students of Venezuela take to the 
streets, and take to social media, begging and pleading to the 
world to speak up and take notice, we have a moral obligation 
to stand up and support them. And that is what this resolution 
does. It tells the hundreds of thousands, even millions of 
Venezuelans who yearn for freedom and for liberty, the United 
States hears you. The United States knows what you are going 
through, and we will support you and support your fundamental 
human rights, because that is what America does everywhere. We 
speak up for those who are being silenced and oppressed.
    I urge my colleagues to support this resolution and to 
support the American ideals of freedom, justice, rule of law, 
protection of human rights, and I thank our colleagues in the 
Senate, Senators Bob Menendez, Marco Rubio, and Dick Durbin. 
They have a measure that mirrors ours, so this shows that this 
is a bipartisan, bicameral measure.
    I am also writing a letter to President Obama and asking 
for cosigners, requesting that he hold Venezuelan officials 
accountable for their human rights abuses. I am asking 
President Obama, pursuant to applicable U.S. law, to deny visas 
to enter the U.S. to Venezuelan officials who commit human 
rights violations, block their property, freeze their assets in 
the U.S., prohibit them from conducting U.S. financial 
transactions with U.S. businesses and institutions. And, in 
addition, I plan on introducing a bill next week that will 
codify these measures into law, and I urge my colleagues to 
support both of these efforts.
    And for this resolution, Mr. Chairman, that is before us, 
we have worked with our Department of State in drafting this 
resolution.
    Thank you very much for the time.
    Mr. Salmon. I thank the gentlewoman from Florida. Are there 
any other members seeking recognition?
    Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman.
    I come here deeply concerned about what is taking place in 
Venezuela. And for me, I thought it was important to be here 
because of my relationship with Venezuela in the past. Many 
probably know that I am one of the few Members of Congress that 
had a relationship with the former Hugo Chavez and happen to 
know the current President Nicolas Maduro. But what I see 
taking place on the streets of Venezuela is not the 
expressions--or not allowing expressions of freedom and 
discontent to take place, and violence and death deeply 
concerns me.
    I was in Latin America last week, and I talked to a number 
of heads of states from various countries, and they are deeply 
concerned, some, believe it or not, who are allies and had been 
working with Venezuela. But even they are concerned at what is 
taking place in Venezuela now.
    I think that I had a moral obligation to be here today to 
speak up against what is taking place, because when I think in 
my own lifetime when African-Americans stood up in the streets 
to protest what they thought was--something that was not 
democratic, we wanted someone to stand and say, take our side, 
help us, stand up and say what is right.
    So when I see that there are individuals--and I know that 
there are people in Venezuela on both sides of the issues, but 
everybody should have the right to express themselves. Everyone 
should have the right to try to make sure that they, too, have 
a voice. And when I see violence being utilized to stop the 
individuals from expressing themselves--and I know Venezuelans, 
because I have been to elections, and I have seen them line up, 
both the opposition and Chavistas, in huge long lines to vote. 
That is what should happen. And people should be able to go in 
the streets and express their discontent. Government should not 
come down and stop those or silence those voices, and people 
should not have to die.
    So we have an obligation, I do believe, when we see people 
dying in the streets simply because they want to express 
themselves, they want to express and put pressure on their 
government. That is what democracies are all about, putting 
pressure on your government. We have disagreements here, but we 
don't go in the streets. We don't allow the government--we 
don't want our government to utilize violence to silence those 
voices. So I felt compelled.
    Generally I don't come and sign up with many of these 
resolutions. I looked at the resolution and I said, basically 
it is a fair resolution. You can tell it is a resolution that 
was worked on in a bipartisan manner. And I just felt it was 
important to call on voices to be heard on all sides of this, 
especially my voice.
    You know, Dr. King said one time, it is those voices that 
were silent that would not speak out against injustice which 
concerns us most. This is clearly an injustice that is taking 
place now. And, again, in the words of Dr. King, ``Injustice 
anywhere is a threat of justice everywhere.''
    So I join this resolution in a bipartisan manner, and I 
thank the chairman and the former chairwoman on your work. I 
was told by the ranking member how you made sure that we were 
inclusive. You worked with the State Department. You made sure 
that there was language in there from both sides and tried to 
do it in a balanced way. So I come today to join this 
resolution, and say, please, stop the violence. Let the voices 
be heard. Let democracy ring. Let there be justice.
    And I yield back.
    Mr. Salmon. I thank the gentleman for his impassionate 
speech.
    In many ways, as I look at what is happening in Ukraine and 
Venezuela, this is 1776. That is what is happening in their 
country, and it is totally about freedom. And if we can't stand 
for that, then what do we stand for?
    The Chair recognizes the gentleman Jeff Duncan.
    Mr. Duncan. I thank the chairman and the former chairwoman 
for lending their voice to this, and I strongly support the 
resolution. I am proud to be an original cosponsor.
    You know, multiple protests have occurred in Venezuela with 
thousands of people gathering to staunchly reject the status 
quo in Venezuela. In response to peaceful protests by students, 
President Maduro has used lethal force that has resulted in the 
deaths of more than a dozen Venezuelans. Many more have been 
wounded, and even more jailed by the regime.
    But I am going to tell you what, Mr. Chairman. I am 
inspired by a former retired military officer in Venezuela, 
General Angel Vivas, who stands in defiance at his own home, in 
defiance of his arrest by President Maduro. And he says here, I 
have the right to self-defense. He has become a folk hero for 
standing in defiance of the government.
    Economic conditions continue to worsen. There have been 
rumors that Cuban troops have been assisting the Venezuelan 
Government in managing the protest. I am concerned the U.S. 
Government is not doing enough to stand in solidarity with the 
Venezuelan people who seek freedom and opportunity, and I 
second the comment you just made, Mr. Chairman, that this is 
Venezuela's 1776 moment. You and I had the conversation that in 
the Ukraine and in Venezuela, folks are seeking self-
governments. They are resisting oppression and seeking liberty.
    The U.S. has a strategic national security interest in 
Venezuela. It is in our hemisphere, but Venezuela is a mere 3-
hour flight from U.S. soil, a major transit route for cocaine, 
heroin destined for the U.S. It possesses deep ties to FARC, 
Cuba, Russia, and Iran, and has allowed these actors influence 
in ways that are harmful to U.S. interests.
    Secondly, Venezuela has large proven reserves of oil 
estimated in 2013 at 297 billion barrels. The economy in 
Venezuela should be more robust than it is. There is a Wall 
Street Journal front-page article today that shows lines of 
Venezuelans in line for basic commodities at the supermarket. 
They have g1 weeks, if not months, without toilet paper. The 
bread lines are very evident. But this article talks about 
President Maduro calling for Carnival season to begin early, 
folks to go to the beaches and start partying. Is this not 
President Maduro's let-them-eat-cake moment? When the folks in 
Venezuela are suffering, he has the opportunity, and the power, 
and the economy and the tools in the economy to do things 
differently.
    I think the United States has not only a vested interest, I 
think we have an obligation, as the beacon of liberty in the 
free world, to support the Venezuelans. I think that is what 
this resolution does. I think it is a great first step in 
urging the Department of State to take credible actions to 
respond to the erosion of freedom in Venezuela.
    I think we can do more. I have an amendment that I am not 
going to offer today, but hopefully we can consider sanctions 
on Venezuela going forward. I think that is important, that is 
a tool that we can use.
    And so I want to end my comments with thanking you for your 
leadership on this issue. I want to thank retired General Vivas 
for his stance, inspiring Venezuelans, inspiring me, as a 
beacon of someone that understands private property rights and 
understands what the word ``liberty'' really means.
    So I look forward to swift passage of this, and I yield 
back.
    Mr. Salmon. Boy, if the public out there doesn't understand 
in a bipartisan way that this group stands for freedom, they 
never will understand anything.
    Does the Representative from Florida seek recognition?
    Mr. DeSantis. Briefly, Mr. Chairman.
    I just want to thank you, thank the ranking member for 
working on this, and thanks to my friend from Florida for all 
of her work. She is constantly supporting the freedom of people 
around the world, but particularly in our hemisphere.
    Look, the people of Venezuela are speaking out against a 
dysfunction and repression that is being brought about by the 
nation's Havana-directed Socialist leaders. America should 
stand with the people in Venezuela. America should stand for 
individual liberty. And I am happy to support this resolution 
so that Congress can demonstrate on behalf of the American 
people our solidarity with the people of Venezuela, who are 
being oppressed by a corrupt regime.
    So thank you for working on this. Thank you for doing this. 
I do agree it is a good first step. This is a critical moment 
for them, and we have to be on the side of those who are 
aspiring to self-government and individual liberty. And I yield 
back.
    Mr. Salmon. I thank the gentleman. Are there any amendments 
to the en bloc amendment?
    Okay. Hearing no further amendments, the question is on 
agreeing to the en bloc amendment.
    All those in favor, say aye.
    Opposed, say no.
    In the opinion of the Chair, the ayes have it, and the en 
bloc agreement is agreed to.
    The question now occurs on adopting the H. Res. 488, as 
amended.
    All those in favor, say aye.
    Opposed, say nay.
    Again, in the opinion of the Chair, the ayes have it, and 
the amended resolution is agreed to.
    Without objection, H. Res. 488, as amended, is reported 
favorably to the full Committee on Foreign Affairs, and staff 
are directed to make any technical and conforming changes.
    That concludes our business, and, without objection, the 
subcommittee stands adjourned.
    [Whereupon, at 10:26 a.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

 <F-dash>\<Hoarfrost><brit-pound><acctof><acctof>a<natural><variable>\
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

         <F-dash>\<r-because><natural>a<variable>s<pound><Rx> 
                     <F-dash><func.-of><Register>\

 Prepared Statement of the Honorable Alan Grayson, a Representative in 
                   Congress from the State of Florida
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
